SUPREME COURT

FILED

State Bar Court No. 16-J-17208

DEC 0 9 2020

S262869

Jorge Navarrete Clerk

IN THE SUPREME COURT OF CALIFORNIADeputy
En Banc
In re GREGORY MELVIN HAYNES on Discipline.
The petition for rehearing is denied. The order issued on October 14,2020
imposing discipline is hereby amended in its entirety:
The court orders that Gregory Melvin Haynes (Respondent), State Bar number
111574, is suspended from the practice of law in California for two years, execution of
that period of suspension is stayed, and he is placed on probation for three years subject
to the following conditions:
1. Respondent is suspended from the practice of law for the first nine
months of his probation;
2. Respondent must also comply with the other conditions of probation
recommended by the Review Department of the State Bar Court in its Opinion filed on
February 11,2020; and
3. At the expiration of the period of probation, if Respondent has complied with
all conditions of probation, the period of stayed suspension will be satisfied and that
suspension will be terminated.
Respondent must provide to the State Bar's Office of Probation proof of taking and
passing the Multistate Professional Responsibility Examination as recommended by the
Review Department in its Opinion filed on February 11,2020. Failure to do so may
result in suspension. (Cal. Rules of Court, rule 9.10(b).)
Respondent must also comply with California Rules of Court, rule 9.20, and
perform the acts specified in subdivisions (a) and (c) of that rule within 30 and 40
calendar days, respectively, after the effective date of this order. Failure to do so may
result in disbarment or suspension. Respondent must also maintain the records of
compliance as required by the conditions of probation.
Costs are awarded to the State Bar in accordance with Business and Professions
Code section 6086.10 and are enforceable both as provided in Business and Professions
Code section 6140.7 and as a money judgment.

CANTIL-SAKAUYE

Witness my hand and the seal of the Court this
I
j
........
day of
Month

Ov:_ F .
Deputy ----------- ---

ChiefJustice

SUPREME COURT

FILED

State Bar Court No. 16-J-17208

OCT 1 4 2020
Jorge Navarrete Clerk

S262869
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
In re GREGORY MELVIN HAYNES on Discipline.
The petition for review is denied. The court orders that Gregory Melvin Haynes,
State Bar number 111574, is suspended from the practice of law in California for two
years, execution of that period of suspension is stayed, and he is placed on probation for
three years subject to the following conditions:
1. Actual Suspension. Gregory Melvin Haynes is suspended from the practice
of law for the first nine months of his probation.
2. Review Rules of Professional Conduct. Within 30 days after the effective
date of this order, Haynes must (1) read the California Rules of Professional Conduct and
Business and Professions Code sections 6067,6068, and 6103 through 6126, and (2)
provide a declaration, under penalty of perjury attesting to his compliance with this
requirement, to the State Bar Office of Probation in Los Angeles (Office of Probation)
with his first quarterly report.
3. Comply with State Bar Act, Rules of Professional Conduct, and Probation
Conditions. Haynes must comply with the provisions of the State Bar Act, the Rules of
Professional Conduct, and all of the conditions of his probation.
4. Maintain Valid Official State Bar Record Address and Other Required Contact
Information. Within 30 days after the effective date of this order, Haynes must make
certain that the State Bar Attorney Regulation and Consumer Resources Office (ARCR)
has his current office address, email address, and telephone number. If he does not
maintain an office, he must provide the mailing address, email address, and telephone
number to be used for State Bar purposes. He must report, in writing, any change in the
above information to the ARCR, within 10 days after such change, in the manner
required by that office.
5. Meet and Cooperate with Office of Probation. Within 15 days after the
effective date of this order, Haynes must schedule a meeting with his assigned probation
case specialist to discuss the terms and conditions of his discipline and, within 30 days
after the effective date of this order, must participate in such meeting. Unless otherwise
instructed by the Office of Probation, he may meet with the probation case specialist in
person or by telephone. During the period of probation, he must promptly meet with
representatives of the Office of Probation as requested by it and, subject to the assertion
of applicable privileges, must fully, promptly, and truthfully answer any inquiries by it
and provide to it any other information requested by it.

6. State Bar Court Retains Jurisdiction/Appear Before and Cooperate with State
Bar Court During Haynes's probation period, the State Bar Court retains jurisdiction
over him to address issues concerning compliance with probation conditions. During
this period, he must appear before the State Bar Court as required by the court or by the
Office of Probation after written notice mailed to his office membership address as
provided above. Subject to the assertion of applicable privileges, Haynes must fully,
promptly, and truthfully answer any inquiries by the court and must provide any other
information the court requests;
7. Quarterly and Final Reports.
a. Deadlines for reports. Haynes must submit written quarterly reports to the
Office of Probation no later than each January 10 (covering October 1 through December
31 of the prior year), April 10 (covering January 1 through March 31), July 10 (covering
April 1 through June 30), and October 10 (covering July 1 through September 30) within
the period of probation. If the first report would cover less than 30 days, that report must
be submitted on the next quarter date and cover the extended deadline. In addition to all
quarterly reports, Haynes must submit a final report no earlier than 10 days before the last
day of the probation period and no later than the last day of the probation.
b. Contents of Reports. Haynes must answer, under penalty of perjury, all
inquiries contained in the quarterly report form provided by the Office of Probation,
including stating whether he has complied with the State Bar Act and the Rules of
Professional Conduct during the applicable quarter or period. All reports must be (I)
submitted on the form provided by the Office of Probation; (2) sighed and dated after the
completion of the period for which the report is being submitted (except for the final
report); (3) filled out completely and signed under penalty of perjury; and (4) submitted
to the Office of Probation on or before each report's due date.
c. Submission of Reports. All reports must be submitted by: (1) fax or email to
the Office of Probation; (2) personal delivery to the Office of Probation; (3) certified
mail, return receipt requested, to the Office of Probation (postmarked on or before the
due date); or (4) other tracked-service provider, such as Federal Express or United Parcel
Service, etc. (physically delivered to such provider on or before the due date).
d. Proof of Compliance. Haynes is directed to maintain proof of his compliance
with the above requirements for each report for a minimum of one year after either the
period ofprobation or the period of his actual suspension has ended, whichever is longer.
He is required to present such proof upon request by the State Bar, the Office of
Probation, or the State Bar Court.
8. State Bar Ethics School. Within one year after the effective date of this order,
Haynes must submit to the Office of Probation satisfactory evidence of completion of the
State Bar Ethics School and passage of the test given at the end of that session. This
requirement is separate from any Minimum Continuing Legal Education (MCLE)
requirement, and he shall not receive MCLE credit for attending that session. If he
provides satisfactory evidence of completion of the Ethics School after the date of the
State Bar Review Department opinion but before the effective date of this order, he will
nonetheless receive credit for such evidence toward his duty to comply with this
condition.

9. Commencement ofProbation/Compliance with Probation Conditions. The
period of probation will commence on the effective date of this order. At the expiration
of the period ofprobation, if Haynes has complied with all conditions ofprobation, the
period of stayed suspension will be satisfied and that suspension will be terminated. ■
Gregory Melvin Haynes must also take and pass the Multistate Professional
Responsibility Examination (MPRE) within one year of the effective date of this order
and provide satisfactoiy proofof such passage to the State Bar Office of Probation within
the same period. Failure to do so may result in automatic suspension. (Cal. Rules of
Court, rule 9.10(b).) ■ If he provides satisfactoiy evidence of completion of taking and
passage of the MPRE after the date of the State Bar Review Department opinion but
before the effective, date of this order, he will nonetheless receive credit for such evidence
toward his duty to comply with this condition; .
Gregory Melvin Haynes must also comply with the California Rules of Court, rule
9.20, and perform the acts specified in subdivisions (a) and (c) of that rule within 30 and
40 calendar days, respectively, after the effective date of this order. Failure to do so may
result in disbarment or suspension. He must file a rule 9.20(c) affidavit even if he has no
clients to notify on the date this order is filed.
Costs are awarded to the State Bar in accordance with Business and Professions
Code section 6086.10 and are enforceable both as provided in Business and Professions
Code section 6140.7 and as a money judgment. Unless time for payment of discipline
costs is extended pursuant to Business and Professions Code section 6086.10, subdivision
(o), costs assessed against an attorney who is.actually suspended or disbarred.must be
paid as a condition ofreinstatement or return to active status.

CANTIL-SAKAUYE
ChiefJustice
i. Jorge Navarret#. Clerk or ihrSupmw Cop
,• f ihc State of California, do hereby certify that the
preceding is a true copy of an order of this Court as
shown the records of my office* •
Witness roy hand and the seal of the Court this

aidvorjQftob0^
^ Deputy

•

PUBLIC MATTER—NOT DESIGNATED FOR PUBLICATION

FILED
FEB 1 1 2020

STATE BAR COURT OF CALIFORNIA
REVIEW DEPARTMENT
In the Matter of

)

GREGORY MELVIN HAYNES,

)

State Bar No. 111574.

)
)

STATE BAR COU1

CLERK'S OFFIC
LOS ANGELES

16-J-17208

)

OPINION

Gregory Melvin Haynes was disbarred by the United States District Court for the
Northern District of California (Northern District) for professional misconduct in two client
matters. Among other things, he failed to perform with competence, appeared without authority,
violated court orders, and misled a judge. In this reciprocal disciplinary matter, a State Bar
Court hearing judge found that Haynes’s district court misconduct warranted discipline in
California, and recommended an actual suspension of nine months.
Haynes appeals, asserting that the district court’s culpability determinations do not
warrant discipline in California. He also makes several constitutional arguments and disagrees
with the hearing judge’s disciplinary recommendation. The Office of Chief Trial Counsel of the
State Bar (OCTC) does not appeal and asks that we affirm the judge’s recommendation.
Upon our independent review of the record (Cal. Rules of Court, rule 9.12), we affirm the
i

hearing judge’s finding that the misconduct found by the federal court warrants reciprocal
discipline in California. We also find that Haynes failed to establish any constitutional violations
in either the federal or the State Bar Court proceedings. Based on the facts and comparable case
law, we find the judge’s recommendation of a nine-month actual suspension to be appropriate
discipline that will protect the public, the courts, and the legal profession.

I. PROCEDURAL BACKGROUND IN STATE BAR COURT
On May 12, 2017, OCTC filed a Notice of Disciplinary Charges (NDC) charging Haynes
with professional misconduct in a foreign jurisdiction under section 6049.1 of the Business and
Professions Code.1 Subdivision (a) of that section provides that a certified copy of a final order
determining that a California attorney has committed professional misconduct in another
jurisdiction is “conclusive evidence that the licensee is culpable of professional misconduct in
this state ...OCTC alleged that Haynes’s misconduct in the district court constituted
violations of sections 6068, subdivisions (b)-(d) and (i), 6103, 6104, and 6106, and
rules 3-110(A), 3-500, 3-700(D)(l), and 5-200 of the Rules of Professional Conduct.2 Since the
district court’s order was conclusive evidence that Haynes committed professional misconduct in
California, the issues before the hearing judge were limited to (1) the degree of discipline to be
imposed; (2) whether, as a matter of law, Haynes’s professional misconduct in the district court
would warrant discipline in California; and (3) whether the proceedings in the district court
lacked fundamental constitutional protection. (§ 6049.1, subd. (b).) Haynes’s burden was to
establish that discipline is not warranted in California and that the district court proceedings
lacked fundamental constitutional protections. (Ibid.)
Haynes filed a motion to disqualify the hearing judge, which was denied on July 14,
2017. He then filed a petition for interlocutory review of the order denying the motion to
disqualify. On August 4, we denied his petition. The hearing judge then issued an order setting

All further references to sections are to the Business and Professions Code unless
otherwise noted.
2 All further references to rules are to the Rules of Professional Conduct that were in
effect from September 14, 1992, to October 31, 2018, unless otherwise noted. As ordered by the
hearing judge, OCTCjfiled a supplemental pleading on July 10, 2017, specifying the language of
the rule or statute violated in the district court and the corresponding California rule or statute
that would have been violated by the misconduct in the foreign jurisdiction.
-2-

_v»

trial dates. Haynes subsequently filed a motion to dismiss the proceedings, which the judge
denied on September 18.
Trial was held on September 25 and 26, 2017. The hearing judge issued her decision on
January 12,2018, finding that Haynes’s culpability for misconduct in the district court warranted
discipline in California under sections 6103, 6104, 6106, and 6068, subdivision (i), and
rules 3-110(A), 3-500, 3-700(D)(l), and 5-200. She recommended a nine-month actual
suspension.
Haynes filed a request for review on April 23, 2018. After multiple extensions of time
granted by the Review Department, Haynes filed his opening brief on November 13,2018. On
January 8, 2019, he filed a motion in the Review Department, which we determined to be a
posttrial motion. On January 16, pursuant to rule 5.151(C) of the Rules of Procedure of the State
Bar of California, we transferred his motion to the Hearing Department and vacated his request
for review. On May 8, the Hearing Department denied the motion. The current appeal is based
on Haynes’s second request for review, filed on June 12, 2019.
II. THE DISTRICT COURT PROCEEDINGS
A.

Factual Background
1. The Cotterill Matter
In 2007, Cheryl Cotterill retained Haynes to represent her in connection with claims

arising from her involuntary confinement for 10 days at San Francisco General Hospital in 2006.
Haynes filed a complaint on her behalf, alleging federal civil rights and common law tort claims
against a variety of defendants, including the City and County of San Francisco (the City), and the
Regents of the University of California (the Regents). During the meet-and-confer stage of the
litigation, Haynes refused to cooperate and responded with profanity and unprofessional

-3-

comments to emails from the Regents’ counsel, R. Wesley Pratt. Pratt reported this conduct to the
court, but the district judge declined to impose sanctions against Haynes at that time.
The defendants filed a motion for summary judgment, but Haynes failed to file an
opposition brief before the August 31, 2009 deadline set by the court. On September 24, a
district judge in the Northern District issued an order to show cause (OSC) why the action should
not be dismissed for failure to prosecute. A response was due by September 29, but Haynes filed
it on September 30, setting forth various reasons that he believed justified his failure to file a
timely opposition. He did not inform Cotterill that the defendants had filed a summary judgment
motion, that he had missed the deadline for filing the opposition, and that the district judge had
issued the OSC.
On October 20, 2009, the district judge granted the City’s motion for summary judgment,
stating that Haynes’s conduct during the prosecution of the case was “reprehensible.” The order
noted that Haynes had been sanctioned for discovery abuses and had repeatedly been late in filing
his submissions.3 The district judge found Haynes’s conduct and submissions to be “consistently
dilatory, rambling, and legally deficient.” A final judgment was issued on October 21.
The City and the Regents filed motions for attorney fees and costs. Haynes did not
inform Cotterill of the summary judgment ruling or the defendants’ motions. Cotterill
discovered the ruling while reviewing her case through the federal court’s electronic public
access service. She emailed Haynes on November 13, 2009, stating that she was “surprised” he
had not contacted her to discuss the ruling. She also wrote that she did not want to appeal, nor
did she want to pursue any action except a defense against the motions for fees and costs.
Haynes emailed Cotterill on multiple occasions, advising her to file an appeal in order to
negotiate with the defendants over the fees and costs. On November 18, she responded: “For the
3 The district judge stated that the summary judgment motion was “fully-briefed,” but
that Haynes’s response was filed “inexcusably late” and only as a result of the court’s OSC.
-4-

second time, I do not want to file an appeal.” The next day, without her authorization, Haynes
filed a notice of appeal without informing her.
After Cotterill emailed Haynes that she knew he had filed a notice of appeal, Haynes
replied that he had to file it so that the time to file would not have expired. He again urged her
not to dismiss the appeal before she had obtained an agreement from the defendants regarding
the costs and fees. On December 2, 2009, Cotterill responded that she understood his point, but
did not agree, and that she wanted him to dismiss the appeal. Haynes did not dismiss it, so
Cotterill herself filed a request to dismiss the appeal on December 22, which was granted on
December 29. In January 2010, Cotterill emailed Haynes stating that he was no longer her
attorney and asking him to return her file. When Haynes did not comply, Cotterill requested it
again in March and in April.
Meanwhile, on March 10, 2010, a magistrate judge recommended that the award of costs
against Cotterill be vacated and denied, but that sanctions be imposed against Haynes for the
attorney fees. The magistrate judge found that Haynes’s conduct in the litigation was vexatious
and unreasonable, and that he had made numerous misrepresentations of fact to the court. The
recommendation was adopted by the district judge, and sanctions against Haynes of $362,545.61
were awarded. Haynes appealed. On July 23, 2012, a Ninth Circuit Court of Appeals (Ninth
Circuit) panel found that Haynes had engaged in a wide variety of incompetent and
unprofessional actions during his representation of Cotterill. The panel remanded the case for
determination whether the sanctions amount was excessive in light of Haynes’s ability to pay,
but it affirmed the sanctions order in all other respects.
2. The Landry Matter
In 2008, Marcus and Daniel Landry retained Haynes to represent them in connection with
claims arising from alleged unlawful searches and seizures and use of excessive force by San

-5-

Francisco police officers and private security officers. Haynes failed to timely serve initial
disclosures or responses to the defendants’ discovery requests in March 2008. In June 2009, the
magistrate judge issued an order awarding $1,000 in sanctions against Haynes personally for his
failure to meet discovery obligations, and directing him to pay them by August 20. Haynes did
not pay the sanctions by that date.
After a hearing on October 8, 2009, Haynes and two defense attorneys, Daniel Zaheer and
Dirk Larsen, walked from the courtroom into the adjoining corridor to discuss discovery-related
matters. During this discussion, Haynes flew into a rage, accosting Zaheer and shouting
profanities at him. Zaheer feared for his personal safety and sought help. United States Marshals
and Federal Protective Services (FPS) officers arrived on the scene, and Haynes yelled profanities
at them too. The attorneys were separated and interviewed. Haynes resumed yelling profanities
and several law enforcement officers escorted him out of the building. Codelle Phillimore, a
bystander who did not know anyone involved in the incident, testified that Haynes stood very
close to Zaheer—“close enough to kiss him”—while yelling profanities at him. She was
frightened for Zaheer’s safety from the events she observed.
On October 21,2009, Zaheer wrote a letter to the district judge, asking that all future
depositions be taken at the federal courthouse because of Haynes’s behavior during the
October 8 incident. Haynes filed a declaration in response to Zaheer’s letter, claiming that the
allegations were without factual support. He stated that “[t]he allegations of profane name
calling is [sic] disproved,” that he “did not lose his composure during the events of [October] 8,
2009,” and that he “did not cause a disturbance.” On November 20, the district judge advised
that any further fighting would result in sanctions. The district judge denied the request to hold
depositions at the federal courthouse, and he ordered that further disputes were to be brought to
him, not the magistrate judge.
-6-

On December 28, 2009, the magistrate judge issued an order requiring the plaintiffs to
provide discovery that they had failed to provide in response to interrogatories or in prior
depositions. In addition to ordering supplemental depositions, the magistrate judge also ordered
Haynes to pay $835 in sanctions to the defendants for half the cost of Marcus Landry’s
deposition, finding that Haynes “unreasonably multiplied these proceedings by obstructing and
delaying” Landry’s deposition. Haynes did not object to the December 28 order, but took the
position that it was “null and void” because the district judge stated that disputes were to be
brought directly to him. The defendants filed a request for clarification. On February 3, 2010,
the district judge issued an order stating that, because the magistrate judge’s December 28, 2009
order related to a dispute that was pending before the November 20 status conference, the
December 28 order was to have “full force and effect.”
Subsequently, the defendants attempted to meet and confer with Haynes, but he failed to
respond. On February 26, 2010, the defendants filed a motion for terminating sanctions based on
the plaintiffs’ repeated failure to comply with court orders regarding discovery. On April 9,
2010, the district judge issued an order granting the motion for terminating sanctions and
dismissing the case with prejudice.
On May 10, 2010, Haynes filed a notice of appeal. The Ninth Circuit initially set
August 17 as the deadline for the plaintiffs to file their opening brief. Haynes then filed eight
requests for extensions of time to file the brief. The last two requests were denied and, on
September 12,2011, the appeal was dismissed with prejudice for failure to prosecute.
B.

Procedural Background in Federal Court’s Disciplinary Proceeding
In February 2010, the chief trial attorney for the San Francisco City Attorney’s Office

wrote a letter to the chief judge for the Northern District, asserting that Haynes had committed
professional misconduct in matters in which he had represented clients in cases adverse to the

-7-

City and County of San Francisco. Based on these allegations, the judge referred the matter to
the Standing Committee on Professional Conduct for the United States District Court for the
Northern District of California (Committee). During its investigation, the Committee twice
requested an interview with Haynes, which he refused. The Committee subsequently issued a
subpoena seeking Haynes’s testimony at a deposition, but he refused toprovide a time or place
where the subpoena could be served on him. On October 14, 2010, the Committee filed a
petition for an OSC why Haynes should not be removed from the bar of the Northern District.
Due to a service error, a second petition.for an OSC was filed in 2011.
The OSC hearing was held on February 29, 2012. The Committee filed a summary
judgment motion on March 7. On April 6, Haynes filed a request for discovery to oppose the
summary judgment motion. On July 6, the court denied his motion, finding that the proposed
discovery was either unnecessary, as it was directed at issues that were not reasonably disputed, or
irrelevant to the pending matter. The court decided that Haynes could not conduct depositions due
to the allegations in the petition, Haynes’s past conduct, and his ‘Gambling, unfocused, semicoherent responses to the court’s questions.” The court also addressed Haynes’s procedural
objections and determined that his due process rights were not violated and he was not prejudiced
in any way. The court allowed Haynes to file another request for discovery, which he did on
August 20. Again, the court denied his request to take depositions of witnesses. Instead, the court
determined that it would conduct an evidentiary hearing where Haynes could question witnesses.
The evidentiary hearing occurred on October 16, 2012. The Committee called and
Haynes cross-examined Zaheer, Phillimore, and Supervisory Deputy United States Marshal,
Christian Hanson. Haynes called Larsen. After the evidentiary hearing, the court extended
Haynes’s deadline to file a response to the Committee’s summary judgment motion. Haynes
timely filed his opposition on December 10. The Committee filed its reply on December 18.

-8-

c»
The court granted the Committee’s summary judgment motion on March 22, 2013, and,
in a 66-page opinion, disbarred Haynes from practicing in the Northern District.4 In April 2013,
Haynes filed a petition for review of the order of disbarment, and a three-judge panel was
appointed to consider his petition. In February 2014, the panel affirmed the disbarment, found
no bias or due process violations, and determined that the disbarment was supported by the
record. Haynes appealed to the Ninth Circuit, which affirmed his disbarment on April 25, 2016.
His petition for a panel rehearing was subsequently denied. Haynes then petitioned the Supreme
Court of the United States for a writ of certiorari, which was denied on March 20, 2017.
C.

Findings and Conclusions in Order Granting Motion for Summary Judgment
In its March 22, 2013 order, the district court found the evidence clear and undisputed

that, with regard to Cotterill and the Landrys, Haynes failed to perform legal services with
competence as required by rule 3-110. The court also found that he violated his professional
duties as set forth in rules 3-500 and 3-700.5
As to Cotterill, the district court found it undisputed that Haynes failed to keep her advised
of the progress of her case, including that he had failed to file a timely opposition to the motion for
summary judgment, which necessitated the issuance of an OSC, and that the court had granted
summary judgment for the defendants. The district court also found it undisputed that Haynes
filed a notice of appeal in direct contravention to his client’s written instructions, he failed to
inform her that he filed the notice, and he failed to dismiss the appeal when she asked. Further, it
was undisputed that Haynes failed to promptly release Cotterill’s file despite her requests.
4 The court stayed the order of disbarment while Haynes filed a petition for review of the
disbarment.
5 Under the district court’s Civil Local Rules, members practicing in the Northern District
are required to comply with the standards of professional conduct imposed by the State Bar of
California; comply with the local rules; practice with the honesty, care, and decorum required for
the fair and efficient administration ofjustice; and discharge his or her obligations to his or her
client and the court. (U.S. Dist. Ct., Local Civ. Rules, Northern Dist. Cal., rule 1 l-4(a).)
-9-

Regarding the Landrys, the district court found it undisputed that their case was
dismissed at the district level because Haynes failed to comply with discovery obligations and
orders of the court. The district court also found it undisputed that the appeal was dismissed
because Haynes failed to file the opening brief, despite the granting of numerous continuances.
The district court also found the evidence clear and undisputed that Haynes “failed to
practice law in the Northern District with the honesty, care, and decorum required for the fair and
efficient administration ofjustice.

It also found that, in the Cotterill case, Haynes sent profane

emails to opposing counsel. The court noted that Haynes’s misconduct in Landry was
underscored by the involvement of the marshals and the FPS officers during the October 8
incident. The district court found it undisputed that Haynes shouted profanities at Zaheer. It
determined that, because of the consistent testimony of the four witnesses, the evidence showed
that Haynes yelled at Zaheer, made threatening and abusive remarks,7 and moved so close to him
that Zaheer was forced to step backwards. Zaheer testified that he felt physically threatened, and
Phillimore and Larsen testified they were afraid Haynes was going to strike Zaheer. The
witnesses also confirmed that Haynes yelled at the court security officers when they arrived.
Additionally, the district court found it undisputed that Haynes failed to comply with his
duty not to mislead a judge, in violation of rule 5-200 in the Landry matter, when he stated in a
filed declaration that the allegations of profane name-calling were disproved, that he did not lose
his composure during the October 8, 2009 incident, and that he did not cause a disturbance. The
district court determined that Haynes’s statements were “false, and designed to mislead the court,
as was his overall description of the incident, which downplayed the use of profane and

,
6 The district court noted here that during a deposition in Gillis v. City and County of San
Francisco (N.D. Cal.) Case No. C-08-3871 RS, Haynes repeatedly referred to opposing counsel
as a “poor little white girl.”
j

Haynes disputed that his actions were abusive or threatening.
-10-

objectionable language and aggressive posturing.” The district court also found that the evidence
showed that Haynes failed to cooperate and participate in the disciplinary investigation, in
violation of section 6068, subdivision (i), when he refused to meet with Committee members to
discuss the allegations and when he refused to accept service of the deposition subpoena.
Ultimately, the district court determined that Haynes’s failures to comply with his duties
to his clients in the Cotterill and Landry matters provided sufficient grounds for disbarment.
Moreover, the court determined that “the undisputed evidence reveals an ongoing pattern of
failure to comply with court orders, failure to follow the rules of practice, and professional
misconduct involving abusive and antagonistic behavior toward opposing counsel.”
The district court noted that Haynes behaved in the disciplinary proceeding “in exactly
the opposite way one would expect from an attorney whose conduct is being scrutinized by a
peer review committee and the court.” The court stated that Haynes repeatedly refused to
cooperate with the Committee and made multiple requests for continuances of every deadline set
by the court. The court described Haynes’s work product as “sloppy, bordering on
incomprehensible, and replete with typographical and grammatical errors, making it difficult for
the court to even understand his arguments.” Further, the court found that Haynes “has utterly
failed to rehabilitate himself, and has demonstrated, time and again, a pattern of refusing to
accept responsibility for his actions. Indeed, he has yet to even acknowledge that he has done
anything improper. Rather, he has been quick to blame opposing counsel, the judges of this
court, the Standing Committee, and his own clients for his professional shortcomings.”
III. RECIPROCAL DISCIPLINE IS WARRANTED
The district court’s final order is conclusive evidence that Haynes is culpable of
professional misconduct in California. (§ 6049.1, subd. (a); In the Matter ofFreydl (Review
Dept. 2001) 4 Cal. State Bar Ct. Rptr. 349,358 [under § 6049.1, State Bar Court accepts other

-11-

court findings of misconduct as conclusive].) To show that discipline is unwarranted, Haynes
must establish that (1) as a matter of law, his professional misconduct in the district court does
not warrant discipline in California or (2) the district court proceedings failed to provide him
with fundamental constitutional protections. (§ 6049.1, subd. (b)(2) & (3).) On review, he has
failed to prove either, and, instead, he has attempted to relitigate the district court’s findings. His
arguments that he is not culpable for misconduct are without merit.
Haynes also argues that we cannot accept the district court’s culpability findings because
they were not decided under our clear and convincing evidence standard. {Conservatorship of
Wendland (2001) 26 Cal.4th 519, 552 [clear and convincing evidence leaves no substantial doubt
and is sufficiently strong to command unhesitating assent of every reasonable mind].) We reject
this argument. The district court made its culpability findings based on undisputed evidence, and
we may rely on findings from foreign jurisdictions with different evidence standards when
considering culpability in reciprocal discipline cases. 8
Based on the district court’s culpability findings, the hearing judge determined that
Haynes was subject to discipline for violations of sections 6103, 6104, 6106, and 6068,
subdivision (i), and rules 3-110(A), 3-500, 3-700(D)(l), and 5-200.9 We affirm the hearing
judge’s findings.
The district court specifically found that Haynes failed to perform with competence, in
violation of rule 3-110(A); failed to keep clients reasonably informed about significant
developments, in violation of rule 3-500; failed to promptly release a client file, in violation of
See In the, Matter ofJenkins (Review Dept. 2000) 4 Cal. State Bar Ct. Rptr. 157,163
(where sufficient evidence exists in record to independently find culpability under clear and
convincing evidence standard, argument that use by foreign jurisdiction of preponderance of
evidence standard lacks merit).
9 The hearing judge dismissed the remaining charges, as pleaded in the NDC, that
Haynes’s misconduct violated section 6068, subdivisions (b)-(d). OCTC did not appeal the
dismissal of those charges, and we affirm the judge’s dismissal of them.
-12-

rule 3-700(D)(l); misled a judge, in violation of rule 5-200; and failed to cooperate in a
disciplinary investigation, in violation of section 6068, subdivision (i). These violations
conclusively establish culpability in California. {In the Matter of Jenkins, supra, 4 Cal. State Bar
Ct. Rptr. atp. 163.)
.Based on the district court findings, the hearing judge also determined that Haynes was
culpable of violating sections 610410 and 610611 by dishonestly filing a notice of appeal on
Cotterill’s behalf without her knowledge and in direct contradiction to her written instructions.12
Additionally, the judge found culpability under section 610313 because Haynes failed to comply
with multiple court orders. These conclusions are also based on undisputed evidence found in
the district court, and therefore, conclusively establish culpability in California. {In the Matter of
Jenkins, supra, 4 Cal. State Bar Ct. Rptr. at p. 163.)
IV. HAYNES’S CONSTITUTIONAL CHALLENGES HAVE NO MERIT
A.

Section 6049.1 Is Constitutional
Haynes argues that section 6049.1 is unconstitutional on its face and as applied. He asserts

that section 6049.1 does not allow for an “independent review” of the record because it does not
permit introduction of evidence not included in the foreign jurisdiction nor does it allow the State

10 Section 6104 provides that an attorney can be disbarred or suspended for “[cjorruptly
or willfully and without authority appearing as an attorney for a party to an action or
proceeding.”
11 Section 6106 provides, “The commission of any act involving moral turpitude,
dishonesty or corruption, whether the act is committed in the course of his relations as an
attorney or otherwise ... constitutes a cause for disbarment or suspension.”
10

The hearing judge did not assign additional weight for the section 6104 violation as it
was based on the same conduct as the section 6106 violation. {In the Matter of Sampson
(Review Dept. 1994) 3 Cal. State Bar Ct. Rptr. 119, 127.) We agree.
13 Section 6103 provides that, “A willful disobedience or violation of an order of the
court requiring him to do or forbear an act connected with or in the course of his profession,
which he ought in good faith to do or forbear, and any violation of the oath taken by him, or of
his duties as such attorney, constitute causes for disbarment or suspension.”
-13-

Bar Court to determine whether the culpability found in the foreign jurisdiction was proper. The
State Bar Court is without jurisdiction to declare section 6049.1 unconstitutional as it is not a court
of record. (Cal. Const., art. Ill, § 3.5.) However, in recommending a suspension or disbarment to
the Supreme Court, we may recommend that a rule or statute be declared unconstitutional if
“applicable legal principles and precedents” call for such action. {In the Matter ofRespondent B
(Review Dept. 1991) 1 Cal. State Bar Ct. Rptr. 424, 433, fh. 11.) We fmd no reason to
recommend that section 6049.1 be declared unconstitutional since it evaluates (I) whether the
proceedings in the foreign jurisdiction violated due process or other constitutional protections and
(2) whether the conviction is supported by clear evidence. (See Selling v. Radford (1917)
243 U.S. 46, 50-51 [United States Supreme Court recognized discipline of Michigan Supreme
Court where there was due process and proof as to facts giving rise to clear conviction]; In the
Matter of Jenkins, supra, 4 Cal. State Bar Ct. Rptr. at pp. 162-164 [§ 6049.1 provides full
opportunity to litigate whether underlying discipline should be conclusive in California
disciplinary proceeding].) Haynes’s arguments regarding the facial constitutionality of
section 6049.1 are without merit.
Further, Haynes has not demonstrated that the proceedings in this court under
section 6049.1 were unconstitutional as applied to him. Under section 6049.1, we may rely on
the proceedings in the district court unless Haynes shows that those proceedings lacked
fundamental constitutional protections. (See Selling v. Radford, supra, 243 U.S. at p. 49 [loss of
bar membership in one jurisdiction for personal and professional misconduct furnishes adequate
reason for loss of bar membership in another jurisdiction].) As discussed below, Haynes has
made no such showing.

-14-

B.

District Court Proceedings Provided Fundamental Constitutional Protection
Haynes has the burden of proving that the district court proceedings “lacked fundamental

constitutional protection.” (§ 6049.1, subd. (b).) He argues that the Committee lacked statutory
authority to investigate disciplinary matters, the district court failed to properly follow its own
local rules, the assigned judge was biased and appointed in violation of his due process and equal
protection rights, and the discipline was improper as it was based on a non-evidentiary hearing.
Haynes’s statutory arguments fail as it is clear from the record that due process was
followed in the district court. “The fundamental requirement of due process is the opportunity to
be heard ‘at a meaningful time and in a meaningful manner.’ [Citations.]” {Mathews v. Eldridge
(1976) 424 U.S. 319, 333.) Under rules 11-6 and 11-7 of the Civil Local Rules of the Northern
District of California, the district court had the authority to refer the matter to the Committee,
which filed a petition alleging misconduct by Haynes after conducting an investigation and
attempting to interview him. The court subsequently issued an OSC based on the petition.
Haynes was given multiple opportunities to be heard by the court. He appeared and
presented argument at the OSC hearing, requested discovery, participated in an evidentiary
hearing, and filed an opposition to the Committee’s summary judgment motion. The court held an
evidentiary hearing and ultimately found the evidence to be clear and undisputed that Haynes
committed professional misconduct. Haynes’s generalized claims that the proceedings were
biased do not establish that they lacked fundamental constitutional protection. {In the Matter of
Harris (Review Dept. 1992) 2 Cal. State Bar Ct. Rptr. 219, 228 [“broadly diffuse strokes of
unfairness charges” and generalized claims insufficient to show lack of fairness].) Haynes has
failed to demonstrate that the district court proceedings lacked fundamental constitutional
protection.

-15-

V. AGGRAVATION AND MITIGATION
Standard 1.514 requires OCTC to establish aggravating circumstances by clear and
convincing evidence. Standard 1.6 requires Haynes to meet the same burden to prove mitigation.
A.

Aggravation
1. Multiple Acts (Std. 1.5(b))
The hearing judge found aggravation for multiple acts of misconduct, but did not assign a

weight. We agree and assign moderate weight for Haynes’s multiple acts in the two client matters
that underlie the district court’s disbarment. (See In the Matter of Bach (Review Dept. 1991)
1 Cal. State Bar Ct. Rptr. 631, 646-647 [three wrongful acts considered multiple acts].)
2. Significant Harm (Std. 1.5(j))
The hearing judge found substantial aggravation for the harm Haynes caused his clients in
the CotteriU and Landry matters. (Std. 1.5(j) [significant harm to client, public, or administration
ofjustice is aggravating circumstance].) We agree. His misconduct resulted in his clients’ cases
being dismissed without adjudication on the merits. (In the Matter ofSullivan (Review Dept.
1997) 3 Cal. State Bar Ct. Rptr. 608, 613 [attorney caused significant harm where clients’ cases
were dismissed due to his inaction].)
3. Indifference (Std. 1.5(k))
The hearing judge found Haynes’s lack of insight into his own misconduct to warrant
significant consideration in aggravation. We agree that his misconduct is aggravated by his failure
to accept responsibility for his actions. (Std. 1.5(k); In the Matter ofKatz (Review Dept. 1991)
1 Cal. State Bar Ct. Rptr. 502, 511 [while law does not require attorney to be falsely penitent, it
“does require that [he] accept responsibility for his acts and come to grips with his culpability.
[Citation.]”],) As discussed by the district court judge in her order granting the Committee’s
14 Rules of Procedure of the State Bar, title IV, Standards for Attorney Sanctions for
Professional Misconduct. All further references to standards are to this source.
-16-

motion for summary judgment, Haynes consistently blamed others for his actions, and he
continues this approach on review. We assign substantial weight in aggravation to this factor.
4. Pattern of Misconduct (Std. 1.5(c))
The hearing judge concluded that it was not established by clear and convincing evidence
that Haynes’s misconduct rises to the level of a pattern under standard 1.5(c). We agree. (Young
v. State Bar (1990) 50 Cal.3d 1204,1217 [only serious instances of repeated misconduct over
prolonged period of time evidence pattern of misconduct]; In the Matter ofValinoti (Review Dept.
2002) 4 Cal. State Bar Ct. Rptr. 498, 555 [pattern must involve serious misconduct spanning
extended time period].)
5. Vulnerability of the Victim (Std. 1.5(n))
The high level of vulnerability of the victim is an aggravating circumstance. The hearing
judge did not assign aggravation under standard 1.5(n), but OCTC asserts that it is appropriate
because Haynes “himself acknowledged that his clients were vulnerable.” However, OCTC does
not cite where such a statement exists in the record, and we cannot find anything in the record to
support OCTC’s assertion. Consequently, OCTC did not prove by clear and convincing evidence
that Haynes’s clients were vulnerable victims.
B.

Mitigation
1. No Prior Record of Discipline (Std. 1.6(a))
The hearing judge found one mitigating circumstance: Haynes’s 26 years of discipline-free

practice prior to the present misconduct. She determined that his lack of a prior record of
discipline warrants “highly significant consideration in mitigation.” Absence of a prior record of
discipline over many years, coupled with present misconduct that is not likely to recur, is a
mitigating circumstance. (Cooper v. State Bar (1987) 43 Cal.3d 1016, 1029 [discipline-free
record most relevant where misconduct is aberrational and unlikely to recur].) OCTC asserts that

-17-

less weight should be given to this factor as Haynes’s misconduct was not aberrational and
consisted of multiple acts of misconduct, including moral turpitude and harm to his clients,

While

we agree with OCTC that his misconduct was not aberrational, we look instead to Haynes’s failure
to accept responsibility for his actions, which gives us considerable doubt that his misconduct is
unlikely to recur. Therefore, we reduce the weight for this circumstance and assign moderate
weight in mitigation.
2. Haynes’s Request for Additional Mitigation
Haynes asserts that he deserves mitigation credit for serving as the attorney in the Cotterill
and Landry matters because they involved civil rights. However, no mitigation can be provided
because Haynes failed to perform competently in these matters.
VI. DISCIPLINE
The purpose of attorney discipline is not to punish the attorney, but to protect the public,
the courts, and the legal profession; to preserve public confidence in the profession; and to
maintain high professional standards for attorneys. (Std. 1.1.) Our disciplinary analysis begins
with the standards. While they are guidelines for discipline and are not mandatory, we give them
great weight to promote consistency. (In re Silverton (2005) 36 Cal.4th 81, 91-92.) The
Supreme Court has instructed us to follow the standards “whenever possible.” (In re Young
(1989) 49 Cal.3d 257, 267, fh. 11.)
In analyzing the applicable standards, we fust determine which standard specifies the
most severe sanction for the at-issue misconduct. (Std. 1.7(a) [most severe sanction must be
imposed where multiple sanctions apply].) Here, standard 2.11 is the most severe and

-18-

applicable, providing for disbarment or actual suspension for an act of moral turpitude,
dishonesty, fraud, or corruption.16
The hearing judge found guidance in Matthew v. State Bar (1989) 49 Cal.3d 784 and In
the Matter of Peterson (Review Dept 1990) 1 Cal. State Bar Ct. Rptr. 73. She determined that
Haynes’s misconduct fell between the misconduct in Matthew (60 days’ actual suspension) and
Peterson (one-year actual suspension); therefore, she recommended a nine-month suspension.
We note that Haynes’s misconduct also reflects an overall lack of civility. Since
standard 2.11 calls for a broad range of discipline (from actual suspension to disbarment), we look
to comparable case law for guidance to determine the appropriate discipline. {Snyder v. State Bar
(1990)49Cal.3d 1302, 1310-1311.) We find that Peterson is particularly useful in guiding our
discipline recommendation.
Peterson failed to perform services competently and abandoned his clients’ interests in
three separate matters. In two of those matters, he also violated section 6106 when he dishonestly
told his clients that he had filed suit on their behalf when he had not. Peterson was also culpable
of failing to cooperate in a State Bar investigation, in violation of section 6068, subdivision (i),
when he did not answer four letters from a State Bar investigator inquiring about complaints made
against him. While Peterson committed misconduct in one more client matter than Haynes, the
misconduct was similar. They both failed to competently represent their clients, which caused
significant client harm. Peterson and Haynes both failed to cooperate in a disciplinary
investigation and were dishonest with their clients regarding the status of their cases. However,
Peterson had more aggravation than Haynes, and Haynes established one mitigating circumstance
where Peterson established none . Further, Haynes practiced law for approximately 26 years
15 The hearing judge misnumbered this standard in her decision.
16 Standards 2.7(b) (actual suspension for performance violations in multiple client
matters) and 2.12(b) (reproval for violation of § 6068, subd. (i)) are also applicable.
-19-

without any discipline prior to the present misconduct, while Peterson practiced for only

six years

before his misconduct began. Accordingly, we find the hearing judge’s determination appropriate
that the discipline in this matter should be less than in Peterson. Considering the standards, the
comparable case law, and the facts of this matter, we affirm the hearing judge’s recommendation
of a nine-month actual suspension.
VII. RECOMMENDATION
For the foregoing reasons, we recommend that Gregory Melvin Haynes, State Bar
No. 111574, be suspended from the practice of law for two years, that execution of that suspension
be stayed, and that he be placed on probation for three years with the following conditions;
1. Actual Suspension. Haynes must be suspended from the practice of law for the first nine
months of his probation.
2. Review Rules of Professional Conduct. Within 30 days after the effective date of the
Supreme Court order imposing discipline in this matter, Haynes must (1) read the
California Rules of Professional Conduct (Rules of Professional Conduct) and Business
and Professions Code sections 6067, 6068, and 6103 through 6126, and (2) provide a
declaration, under penalty of perjury, attesting to his compliance with this requirement to
the State Bar’s Office of Probation in Los Angeles (Office of Probation) with his first ’
quarterly report.
3. Comply with State Bar Act, Rules of Professional Conduct, and Probation
Conditions. Haynes must comply with the provisions of the State Bar Act, the Rules of
Professional Conduct, and all conditions of his probation.
4. Maintain Valid Official State Bar Record Address and Other Required Contact
Information. Within 30 days after the effective date of the Supreme Court order imposing
discipline in this matter, Haynes must make certain that the State Bar Attorney Regulation
and Consumer Resources Office (ARCR) has his current office address, email address, and
telephone number. If he does not maintain an office, he must provide the mailing address,
email address, and telephone number to be used for State Bar purposes. Haynes must
report, in writing, any change in the above information to ARCR, within 10 days after such
change, in the manner required by that office.
5. Meet and Cooperate with Office of Probation. Within 15 days after the effective date of
the Supreme Court order imposing discipline in this matter, Haynes must schedule a
meeting with his assigned probation case specialist to discuss the terms and conditions of
his discipline and, within 30 days after the effective date of the court’s order, must
participate in such meeting. Unless otherwise instructed by the Office of Probation, he
may meet with the probation case specialist in person or by telephone. During the *
-20-

probation period, Haynes must promptly meet with representatives of the Office of
Probation as requested by it and, subject to the assertion of applicable privileges, must
fully, promptly, and truthfully answer any inquiries by it and provide to it any other
information requested by it.
6. State Bar Court Retains Jurisdiction/Appear Before and Cooperate with State Bar
Court. During Haynes’s probation period, the State Bar Court retains jurisdiction over
him to address issues concerning compliance with probation conditions. During this
period, he must appear before the State Bar Court as required by the court or by the Office
of Probation after written notice mailed to his official membership address, as provided
above. Subject to the assertion of applicable privileges, Haynes must fully, promptly, and
truthfully answer any inquiries by the court and must provide any other information the
court requests.
7. Quarterly and Final Reports
a. Deadlines for Reports. Haynes must submit written quarterly reports to the Office of.
Probation no later than each January 10 (covering October 1 through December 31 of the
prior year), April 10 (covering January 1 through March 31), July 10 (covering April 1
through June 30), and October 10 (covering July 1 through September 30) within the
period of probation. If the first report would cover less than 30 days, that report must be
submitted on the next quarter date and cover the extended deadline. In addition to all
quarterly reports, Haynes must submit a final report no earlier than 10 days before the last
day of the probation period and no later than the last day of the probation period.
b. Contents of Reports. Haynes must answer, under penalty of perjury, all inquiries
contained in the quarterly report form provided by the Office of Probation, including
stating whether he has complied with the State Bar Act and the Rules of Professional
Conduct during the applicable quarter or period. All reports must be: (1) submitted on the
form provided by the Office of Probation; (2) signed and dated after the completion of the
period for which the report is being submitted (except for the final report); (3) filled out
completely and signed under penalty of perjury; and (4) submitted to the Office of
Probation on or before each report’s due date.
c. Submission of Reports. All reports must be submitted by: (1) fax or email to the
Office of Probation; (2) personal delivery to the Office of Probation; (3) certified mail,
return receipt requested, to the Office of Probation (postmarked on or before the due date);
or (4) other tracked-service provider, such as Federal Express or United Parcel Service, etc.
(physically delivered to such provider on or before the due date).
d. Proof of Compliance. Haynes is directed to maintain proof of his compliance with the
above requirements for each such report for a minimum of one year after either the period
of probation or the period of his actual suspension has ended, whichever is longer. He is
required to present such proof upon request by the State Bar, the Office of Probation, or
thb State Bar Court.
8. State Bar Ethics School. Within one year after the effective date of the Supreme Court
order imposing discipline in this matter, Haynes must submit to the Office of Probation
-21-

satisfactory evidence of completion of the State Bar Ethics School and passage of the test
given at the end of that session. This requirement is separate from any Minimum
Continuing Legal Education (MCLE) requirement, and he will not receive MCLE credit
for attending this session. If he provides satisfactory evidence of completion of the Ethics
School after the date of this opinion but before the effective date of the Supreme Court’s
order in this matter, Haynes will nonetheless receive credit for such evidence toward his
duty to comply with this condition.
9. Commencement of Probation/Compliance with Probation Conditions. The period of
probation will commence on the effective date of the Supreme Court order imposing
discipline in this matter. At the expiration of the probation period, if Haynes has complied
with all conditions of probation, the period of stayed suspension will be satisfied and that
suspension will be terminated.
VIII. MULTISTATE PROFESSIONAL RESPONSIBILITY EXAMINATION
We further recommend that Gregory Melvin Haynes be ordered to take and pass the
Multistate Professional Responsibility Examination (MPRE) administered by the National
Conference of Bar Examiners within one year of the effective date of the Supreme Court order in
this matter and to provide satisfactory proof of such passage to the Office of Probation within the
same period. Failure to do so may result in an automatic suspension. (Cal. Rules of Court,
rule 9.10(b).) If he provides satisfactory evidence of taking and passage of the MPRE after the
date of this opinion but before the effective date of the Supreme Court’s order in this matter, he
will nonetheless receive credit for such evidence toward his duty to comply with this condition.
IX. CALIFORNIA RULES OF COURT, RULE 9.20
We further recommend that Haynes be ordered to comply with the requirements of
California Rules of Court, rule 9.20, and to perform the acts specified in subdivisions (a) and (c)
of that rule within 30 and 40 days, respectively, after the effective date of the Supreme Court order
imposing discipline in this matter17 Failure to do so may result in disbarment or suspension.

17

For purposes of compliance with rule 9.20(a), the operative date for identification of
“clients being represented in pending matters” and others to be notified is the filing date of the
Supreme Court order, not any later “effective” date of the order. {Athearn v. State Bar (1982)
32 Cal.3d 38, 45.) Further, Haynes is required to file a rule 9.20(c) affidavit even if he has no
-22-

X. COSTS
w« ■*
-I

Ha, corn b. « „

M,

’™“ “

60S6j „, !UC„

SMe B>r

^ 3^

Mng enfora>Hc m u

“> °,"Cta “'“‘O’ ““ “»«< ■*« -

„ disbud _ te paM « , „dis_

^

who i, „_,y

otMm (o ^ sm>>
Mcgill, j.

WE CONCUR:
PURCELL, P. J.
HONN, J.

State Bar (1988) 44 CaL3d 337

r^In^addMo^to'b ^^ PK>Ceeding- (Powers v.

attorney’s failure to comply wii mle 9.20 NPU!“Sh 38 3 crime or C0I«empt, an
revocation of any pending disciplinary nrnhaf
a*a
^ia’ dis^arment> suspension,
after disband (Cal. rKSS^JS(cW
*“ <WKcafal ** rei“-t
-23-

